Supreme Court, U.S.
FILED

JAN 0 9 2021
No.
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.

S^kJor-1

_ RESpoNDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Crc. w. i -/
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

111.7 .Coro-/ PI
(Address)

(City, State, Zip Code)

7S~?

o ?>$

(Phone Number)

f?

s

QUESTION(S) PRESENTED

1. Where the U.S. Supreme Court has ruled that Section 1981 of the Civil Rights Act of 1866
prohibits racial discrimination in contractual relationships, to include employment and provides
protection from unlawful retaliation, to what extent is the use of the Federal Arbitration Act
(“FAA”) Unconstitutional?
2. While the Civil Rights Act of 1866 (42 U.S.C. Section 1981) provides protection against
retaliation in contractual relationships, to include employment, under what circumstances can
retailation continue beyond a employment relationship and a second Complaint be barred by res
judicata?
3. Where the U.S. Supreme Court has ruled that Section 1981 of the Civil Rights Act of 1866
prohibits racial discrimination in contractual relationships, to include employment and provides
protection from unlawful retaliation, if an employee shares a employment relationship with two
entities, where there is a contractual agreement to arbitrate with one entity but not a contract with
the other, can the Federal Arbitration Act (“FAA”) be used by both entities? (No contract but
still supervisor)

ii

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[\f\ All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:
Anthony Lonnie Forbes was the sole petitioner in the court of appeals and in this Court, which
was the Plaintiff below
Both Seaworld Entertainment, INC and The Blackstone Group, L.P., were respondents in the
court of appeals and in this Court, which were the Defendants below

Related Cases
•

Forbes v. Seaworld Entertainment, INC., et al, No. 4:19-cv-56, U.S. District Court for
the Easter District of Virginia. Judgment entered Feb 14, 2020

•

Forbes v. Seaworld Entertainment, INC., et al, No. 20-1208, U.S. Court of Appeals for
Fourth Circuit. Judgement entered Aug 18, 2020

•

Forbes v. Seaworld Parks & Entertainment, No. 4:16-cv-172, U.S. District Court for the
Easter District of Virginia. Judgment entered Jun 5, 2017

•

Forbes v. Seaworld Parks & Entertainment, No. 17-1795, U.S. Court of Appeals for
Fourth Circuit. Judgement entered Dec 27, 2017

•••
111

Table of Contents

QUESTIONS PRESNTED

1

LIST OF PARTIES

11

RELATED CASES

11

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

11

INDEX TO APPENDICES

APPENDIX A Decision of Appeals Court

APPENDIX B Decision of District Court

APPENDIX C Denied rehearing Order

IV

TABLE OF AUTHORITIES
Page(s)
Cases
Brissette v. Franklin County Sheriff Office, 235 F. Supp. 2d 63 (D. Mass 2003).
Chambers v. NASCO Inc., 501 U.S. 32, 47 (1991).
Choice Hotels Int’l, Inc v. BSR Tropicana Resort, Inc., 252 F.3d 707, 709-10 (4th Cir. 2001)
Cozzi v. Pepsi-Cola Gen. Bottlers, Inc., No. 96 C 7228, 1997 WL 312048, at *3 (N.D. Ill. 1997)
Christensen v. Ward, 916 F.2d 1485 (10th Cir. 1990)
Didie v. Howes, 988 F. 2d 1097 (11th Cir. 1993)
DiPaolo v. Moran, 407 F.3d 140, 146 (3rd Cir. 2005).
Doering v. Union County Bd. Of Chosen Freeholders, 857 F.2d 191, 194 (3rd Cir. 1988).
EEOC v. Outback Steakhouse of Florida, Inc., 75 F. Supp. 2d 756 (N.D. Ohio 1999)
Franklin v. Murphy, 745 F. 2d 1221, 1229-36 (9th Cir. 1984)
Gliatta v. Tectum, Inc., 211 F. Supp. 2d 992, 1008-09
Greenville Hosp. Sys. V. Welfare Ben. Plan for Emps. Of Hazelhurst Mgmt. Co., 628 F. App’x
842, 845-46 (4th Cir.2015)
Jacques v. DiMarzio, Inc., 216 F. Supp. 2d 139, 141-43 (E.D.N.Y. 2002)
Kunstler, 914 F. 2d 505, 518 (4th Cir. 1990)
Lawlor v. National Screen Service Corp., 349 U.S. 322 (1955)
Massengale v. Ray, 267 F.3d 1298, 1302 (11th Cir. 2011)
Merrigan, Supra; In re Green, 669 F.2d 779, 781-85 (D.C. Cir 1981
Ruderer v. United States, 462 F.2d at 899 n.2 (listing cases); In re Martin-Trigona, 737 F.2d
1254, 1264-74 (2d Cir. 1984).

Schramekv. Jones, 161 F.R.D. 119, 122 (M.D. Fla. 1995)
Susan Boggs, et al. v. City of Cleveland, 655 F.3d 516 (6th Cir. 2011).
Sussman v. Salem, Saxon and Nielsen, P. A., 150 F.R.D. 209, 213 (M.D. Fla. 1993).
Tripoti v. Beamon, 878 F.2d 351, 353 (10th Cir. 1989)
Vance v. Ball State Univ., 570 U.S. 421, 431, 133 S. Ct. 2434, 2443, 186 L. Ed. 2d 565 (2013)

Constitutions and Statutes
9 U.S.C.A. § 3
U.S. Code § 1512.
18 U.S. Code § 1001
18 U.S. Code § 1621 Perjury generally
28 U.S.C § 1927
42U.S.C. § 1981
Title VII of the 1964 Civil Rights Act (Title VII), as codified, 42 U.S.C. §§ 2000e-17(race, color,
gender, religion, national origin).
U.S. Const., art. 13, § 1
U.S. Const., art. 14, § 1
Virginia Human Rights Act § 2.2-3900-03

Rules
Rule 11(b) of the Federal Rules of Civil Procedure
Sup. Ct. R. 10(a)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

ti/iFor cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A~ to

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
unpublished.
The opinion of the United States district court appears at Appendix ^
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[kT^s unpublished.
f ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
1% +
was
[ ] No petition for rehearing was timely filed in my case.
infK timely petition for rehearing was denied by the United States Court of
3 i XoJLo__ t and a copy of the
Appeals on the following date:
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section 1 of the Thirteenth Amendment to the U.S Constitution, provides:
Neither slavery nor involuntary servitude, except as a punishment for crime whereof the party
shall have been duly convicted, shall exist within the United States, or any place subject to their
jurisdiction.
Section 1 of the fourteenth Amendment to the U.S. Constitution, provides:
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property, without due process of the law; nor
deny to any person within its jurisdiction the equal protection of the laws.
42 U.S.C. § 1981provides:
All persons within the jurisdiction of the United States shall have the same right in every State
and Territory to make and enforce contracts, to sue, be parties, give evidence, and to the and
equal benefit of all laws and proceedings for the security of persons and property as is enjoyed
by white citizens, and shall be subject to the like punishment, pains, penalties, taxes, licenses,
and exactions of every kind, and to no other.
Title VII of the 1964 Civil Rights Act (Title VII), as codified, 42 U.S.C. §§ 2000e-17(race, color,
gender, religion, national origin).
Virginia Human Rights Act § 2.2-3900-03 provides:
Virginia’s Human Rights Act outlines the policy of the Commonwealth to “[ s jafeguard all
individuals within the Commonwealth from unlawful discrimination because of race, color,
religion, national origin, sex, pregnancy, childbirth or related medical conditions, age, marital
status, or disability, places of public accommodation,” including in education, real estate, and
employment. The Act defines the “unlawful discriminatory practice” and gender discrimination”
as conduct that violates any Virginia or federal statute or regulation governing discrimination
based on race, color, religion, national origin, sex, pregnancy, childbirth or related medical
conditions, age, marital status, or disability. The terms “because of sex or gender” or “on the
basis of sex or gender” or similar terms in reference to discrimination in the Code and acts of the
General Assembly include pregnancy, childbirth or related medical conditions shall be treated
the same for all purposes as persons not so affected but similar in their abilities or disabilities.

STATEMENT OF THE CASE
This case presents opportunities for the Court to address complex issues regarding
statutory standing of Title VII of the Civil Rights Act of 1964 (“Title VII”), 42 U.S.C. § 1981
and in essence, the Virginia Human Rights Act. The respondents used not only illegal but
unconstitutional tactics in their reply to the petitioners’ Complaint and attempt to arbitrate
harassment-free, thus eliminating the petitioners’ right to due process. The Court has the
authority to clarify the scope of the Federal Arbitration Act (“FAA”) and determine its
constitutionality and the proper use of res judicata. As explained by the petitioner and then
Plaintiff, he was sexually harassed and reported the inappropriate conduct. Eventually, an
investigation was conducted, which caused a snowball effect and the Plaintiff was physically
assaulted by a Vice-President. After going to the police the petitioner was fired. A Member of
Seaworld (Lawyer) contacted the police department and told the police that there was an incident
but the result of the investigation was inconclusive despite being told by a witness that the
assault did happen and the police report was not done properly (Obstruction of Justice).
Therefore, from the inception of the police report there has been no due process. As the Court
may know, the statute of limitation obstruction of justice doesn’t actually start until one stops
obstructing justice.
Where the U.S. Supreme Court has ruled that Section 1981 of the Civil Rights Act of 1866
prohibits racial discrimination in contractual relationships, to include employment and
provides protection from unlawful retaliation, to what extent is the use of the Federal
Arbitration Act (“FAA”) Unconstitutional?

The power to contract is extremely broad, but that doesn’t mean the power is limitless.
You can’t contract to perform illegal activities and you certainly can’t contract away
constitutional rights. Contracts that are unconscionable are not enforceable. Fundamentally, it is
not reasonable to ask someone not to go to the police after being physically assaulted at work
because they signed a contract with their employer. In addition, it also is not reasonable for
employees of a company to give false statements to the police. Lying to the police is illegal and
not covered by any DRP or Arbitration agreement. When the Plaintiff-petitioner went to the
police to file a police report, truthful statements should have been given to the police; hence a
truthful police report should have been generated and been available for evidence. It is not
reasonable to expect the petitioner to arbitrate without truthful evidence that should be present.
By giving the police false information alone violated the petitioner’s civil rights. 42 U.S.C. §
1981provides that petitioner has the right to give evidence. Additionally, the Court should have
all evidence to legally determine if all the present issues are arbitrable. “[I]f a court determines
‘that all of the issues presented are arbitrable, then it may dismiss the case’” Hawthorne, 2016

U.S. Dist. LEXIS 114969, at *19 (quoting Greenville Hosp. Sys. V. Welfare Ben. Plan for Emps.
OfHazelhurst Mgmt. Co., 628 F. App’x 842, 845-46 (4th Cir.2015)); see also Choice Hotels
bit’l, Inc v. BSR Tropicana Resort, Inc., 252 F.3d 707, 709-10 (4th Cir. 2001), this was not the
case for this case or the original Complaint. The petitioners’ first case was dismissed without all
of the evidence being presented to the Court due to the respondent’s illegal conduct. The use of
Seaworld’s Dispute Resolution Program and contract to arbitrate is unconstitutional for many
reasons. Using this case for example, would allow one’s boss to hit them and legally get away
with it, with no limitations, an unwelcoming environment at work could turn violent and lead to
much more serious incidents.
Seaworlds’ DRP requires employees to waive certain rights and to agree to “and to accept
an arbitrator’s decision as the final, binding and exclusive determination of all covered claims.”
The language that is used in Seaword’s Dispute Resolution literally calls for unlawful or illegal
conduct “Claims relating to or arising out of the employment relationship that:... B. ‘the
Employee may have against the Company and/or any individual employee who is acting within
the scope of his or her employment with the Company, where the Employee alleges unlawful
termination and/or unlawful or illegal conduct on the part of the Company’” If Seaworlds’ policy
were to stand, it would allow for a Seaworld Employee to hit another employee (as in this case)
but not allow the victim to go to the Courts to get a protection order or restraining order against
the person that hit them. Because it was the petitioner’s boss, this action is no different than the
slavery that was abolished by the 13th amendment. As the Court may know, violent incidents
that are started at work, can and frequently do, carry on outside of work, and can escalate
quickly. The Courts have widely ruled that Title VII’s anti retaliation provision is not limited to
the actions affecting employment or those occurring at work, and can extend to actions causing
harm outside the workplace. Therefore, it is not reasonable to ever require seaworlds’ DRP or
arbitration over public safely. With the combination of the respondent lying to police
(obstructing justice) and preventing employee’s from legally protecting themselves (requiring
arbitration when an employee does something unlawful or participates in illegal conduct on the
part of the Company), it is easy to see that the use of the Federal Arbitration Act (“FAA”) can
not only be unconstitutional but is unconstitutional. There is a clear conflict between the Civil
rights that are guaranteed by 42 U.S.C. § 1981provides, Title VII of the 1964 Civil Rights Act
(Title VII), Virginia Human Rights Act § 2.2-3900-03 and the Federal Arbitration Act (“FAA”)

While the Civil Rights Act of 1866 (42 U.S.C. Section 1981) provides protection against
retaliation in contractual relationships, to include employment, under what circumstances
can retailation continue beyond a employment relationship and a second Complaint be
barred by res judicata?

The Respondents participated in actions that kept the petitioner from bringing evidence to
the Courts and to any DRP arbitration process as explained above. However, the Respondents
also participated in witlessness intimidation during separate but related state cases before the
federal complaint process was over. It was unlawful to threaten the then Plaintiff, putting him in
fear of his life but also done to prevent the petitioner from binging evidence to the Court.
Dismissing the petitioners Complaint in the lower courts, the petitioners interrogatories went
unanswered, which would have connected Jimmy Robinson, Lieutenant Governor Justin Fairfax
and Senator Kamala Harris and the respondents to causes of actions that are employment related.
Once again the Courts have widely ruled that Title VII’s anti retaliation provision is not limited
to the actions affecting employment or those occurring at work, and can extend to actions
causing harm outside the workplace. Seaworld and their associates would go on to commit more
threats and harassment throughout the whole legal process.

In filing the Defendants’ Motion to Dismiss, Jimmy F. Robinson, Jr. violated Rule 11(b)
of the Federal Rules of Civil Procedure (see motion for sanctions) In order to get to The
Defendants’ flawed defense, Mr. Robinson simply lied. The Defendants’ Motion to Dismiss does
not meet the requirements of the Federal Rules of Procedure and therefore, should not have been
granted under Rule 12(b)(6). The Plaintiff believes that the then defendants violated 18 U.S.
Code § 1621 Perjury generally, but has did so in a way that falsifies, conceals, or covers up by
any trick, scheme, or device a material fact; makes any materially false, fictitious, or fraudulent
statement or representation; or makes or uses any false writing or document knowing the same to
contain any materially false, fictitious, or fraudulent statement or entry, a violation of 18 U.S.
Code § 1001, a violation of U.S. Const., art. 14, § 1. Rule 11 allows a court to impose sanctions
on a party who has presented a pleading, motion or other paper to the court without evidentiary
support or for “any improper purpose.” See Fed. R. Civ. P. Rule 11 (b). An improper purpose
may be inferred from the filing of frivolous papers. See In re Kunstler, 914 F. 2d 505, 518 (4th
Cir. 1990). The standard is an objective one; whether a reasonable party would have acted in a
particular way. See Chambers v. NASCO Inc., 501 U.S. 32, 47 (1991). “The reasonableness of
the conduct involved is to be viewed at the time counsel or the party signed the document alleged
to be the basis of the Rule 11 sanction.” Sussman v. Salem, Saxon and Nielsen, P. A., 150 F.R.D.
209, 213 (M.D. Ha. 1993). The purpose of Rule 11 sanctions is to “reduce frivolous claims,
defenses, or motions, and to deter costly meritless maneuvers.” Massengale v. Ray, 267 F.3d
1298, 1302 (11th Cir. 2011); see also, Sussman, 150 F. R. D at (“this Court recognizes Rule 1 l’s
Objectives, which include: (1) deterring future litigation abuse, and (2) punishing present
litigation abuse, (3) compensating victims of litigation abuse, and (4) streamlining court dockets
and facilitating case management”). In the Eleventh Circuit, “three (3) types of conduct warrant
Rule 11 sanctions: (1) when a party files a pleading that has no reasonable factual basis; (2)
when a party files a pleading that is based on legal theory that has no reasonable chance of

success and that cannot be advanced as reasonable argument to change existing law; and (3)
when a party files a pleading in bad faith or improper purpose.” Didie v. Howes, 988 F. 2d 1097
(11th Cir. 1993) (citations omitted). Rule 11 are mandatory when a signed paper is submitted to
the court under the aforementioned conditions. See Schramek v. Jones, 161 F.R.D. 119, 122
(M.D. Fla. 1995) (emphasis added). Although Rule 11 specifically contemplates sanctions in
the form of an award of attorneys fees, the award of fees “is but one of several methods of
achieving the various goals of Rule 11.” See Doering v. Union County Bd. Of Chosen
Freeholders, 857 F.2d 191, 194 (3rd Cir. 1988). In fact, Rule 11 states that the nonmonetary
directives.” See Rule 11(c)(4). Numerous courts have held that injunctive sanctions are
appropriate to regulate the activities of abusive litigants. See Christensen v. Ward, 916 F.2d
1485 (10th Cir. 1990); see also Tripoti v. Beamon, 878 F.2d 351, 353 (10th Cir. 1989);
Merrigan, Supra; In re Green, 669 F.2d 779, 781-85 (D.C. Cir 1981); Franklin v. Murphy, 745
F. 2d 1221, 1229-36 (9th Cir. 1984); Ruderer v. United States, 462 F.2d at 899 n.2 (listing
cases); In re Martin-Trigona, 737 F.2d 1254, 1264-74 (2d Cir. 1984). Rule 11 does not
enumerate factors a court should consider in deciding the appropriate sanction for a Rule 11
violation. See Fed. R. Civ. P.ll Advisory Committee Notes (1993). Rather, a trial court has
broad discretion to choose the nature and amount of the sanction to achieve the deterrent
purposes of Rule 11. See DiPaolo v. Moran, 407 F.3d 140, 146 (3rd Cir. 2005). In this current
matter, monetary sanctions together with injective sanction are appropriate.
Mr. Robinson and the Defendant’s claims made in its Motion to dismiss are not only
frivolous, but also a form or retaliation. The desire to punish the Plaintiff, who is a former
employee and to deter others from taking similar measures is appalling. This desire to punish the
Plaintiff for engaging in protected activity (i.e. filing a lawsuit), and deter others from acting
. similarly, is what makes it retaliation. See Brissette v. Franklin County Sheriff Office, 235 F.
Supp. 2d 63 (D. Mass 2003). Legal proceedings, to include counterclaims, can constitute
actionable retaliation if they are filed against an employee in response to the employee asserting
statutory workplace rights. See, e.g., Jacques v. DiMarzio, Inc., 216 F. Supp. 2d 139, 141-43
(E.D.N.Y. 2002) (defendant’s counterclaims found sua sponte to be retaliatory, dismissal and
sanctions issued sua sponte); Gliatta v. Tectum, Inc., 211 F. Supp. 2d 992, 1008-09
(counterclaim alleged to be retaliatory) (citing EEOC v. Outback Steakhouse of Florida, Inc., 75
F. Supp. 2d 756 (N.D. Ohio 1999) (same)); Cozzi v. Pepsi-Cola Gen. Bottlers, Inc., No. 96 C
7228, 1997 WL 312048, at *3 (N.D. Ill. 1997) (State court fraud lawsuit alleged to be
retaliatory). Although allegations contained within legal pleadings are protected by an absolute
privilege under the law of defamation, the Supreme Court has long recognized that the
Constitution does not protect the assertion of frivolous legal claims, and that such action can
constitute actionable retaliation. Bill Johnson’s Restaurants, Inc. v. NLRB, 461 U.S. 731 (1983)
(holding that the NLRB may enjoin a baseless lawsuit that is brought for retaliatory reasons).
When Mr. Robinson threatened to shoot the Plaintiff, it was a form of Obstruction of
Justice, U.S. Code § 1512. Tampering with a witness, victim, or an informant. Putting the

Plaintiff in fear of his life and stopping the Arbitration process altogether is and was out of the
scoop of employment.

In addition to the violations of Rule 11(b) of the Federal Rules of Civil Procedure, it is
the Plaintiffs notion that Jimmy F. Robinson has violated 28 U.S.C § 1927 by multiplying the
proceedings unreasonably and vexatiously.

The lower Courts dismissed the petitioners Complaint stating that all of the claims were
the same or identical to the petitioners first Complaint. However, the harassment was a
continuation of the earlier conditions that had worsened with new facts. As the Supreme Court
explained more than 60 years ago in Lawlor v. National Screen Service Corp., 349 U.S. 322
(1955), res judicata does not bar a suit, even if it involves the same course of wrongful conduct
as alleged earlier, so long as the suit alleges new facts or a worsening of the earlier conditions.
Even if all of Plaintiffs’ claims were considered to arise from the same conduct and occurrences,
which they do not, with the right new facts, res judicata does not bar a second suit. See In re
State of Ohio ex rel. Susan Boggs, et al. v. City of Cleveland, 655 F.3d 516 (6th Cir. 2011). The
ongoing threats and harassment towards the petitioner and his family did not stop when the
current Complaint was filed; the respondents continued their actions throughout the appeal
process. Despite being given Cease and Desist letters, the respondents continued to gang up on
the petitioner to include the use of government officials.

Where the U.S. Supreme Court has ruled that Section 1981 of the Civil Rights Act of 1866
prohibits racial discrimination in contractual relationships, to include employment and
provides protection from unlawful retaliation, if an employee shares a employment
relationship with two entities, where there is a contractual agreement to arbitrate with one
entity but not a contract with the other, can the Federal Arbitration Act (“FAA”) be used
by both entities? (No contract but still supervisor)

There is no arbitration agreement with The Blackstone Group. Stephen A. Schwarzman was
the Plaintiff’s supervisor. The Blackstone CEO Stephen A. Schwarzman was David
D’Alessandro’s supervisor who in return, was the Plaintiffs Anthony Lonnie Forbes’s
supervisor. 42 U.S.C. § 1981 specifically, states that individuals such as supervisors, as well as

business entities can be sued under Section 1981. In Fact, as Mr. Robinson stated “Under Settled
precedent, a supervisor must be able to “effect significant change in employment status, such as
hiring, firing, failing to promote, reassignment with significantly different responsibilities, or a
decision causing a significant change in benefits/” Vance v. Ball State Univ., 570 U.S. 421, 431,
133 S. Ct. 2434, 2443, 186 L. Ed. 2d 565 (2013). The Blackstone Group not only owned the
Majority of shares of Seaworld but also employed David D’Alessandro. The Shareholders (The
Blackstone Group) had complete control over David D’Alessandro and the Seaworld
Entertainment Inc. Directors such as David D’Alessandro appoint- and can fire-upper managers
such as the CEO and president, the chairman typically wields substantial power in a company.
Because The CEO cannot make any major moves without the board’s assent, and his or her job
security depends on their satisfaction, the chairman is his or her superior. In Short, the boss of
the petitioner’s boss is still his boss. There is no enforceable contract with The Blackstone Group
yet, Stephen A. Schwarzman was the petitioner’s supervisor. Notwithstanding the fact that the
Federal Arbitration Act (“FAA”) was used in an unconstitutional way in the first place, the
Complaint should not have been dismissed because there was no contract with the one of the
respondents.

REASONS FOR GRANTING THE PETITION

There have been several crimes committed by government officials. If these crimes go
unpunished the officials will strike again.
A person’s Civil Rights are not only vital to live in a functional society, but where made to
protect individuals. If we allow Civil Rights to be violated America will drown in chaos.
As the Supreme Court explained more than 60 years ago in Lawlor v. National Screen Service
Corp., 349 U.S. 322 (1955), res judicata does not bar a suit, even if it involves the same course
of wrongful conduct as alleged earlier, so long as the suit alleges new facts or a worsening of the
earlier conditions.
The power to contract is extremely broad, but that doesn’t mean the power is limitless. You can’t
contract to perform illegal activities and you certainly can’t contract away constitutional rights.
Contracts that are unconscionable are not enforceable
While the Civil Rights Act of 1866 (42 U.S.C. Section 1981) provides protection against
retaliation, it also gives parties the right to give evidence in a Court.
The Federal Arbitration Act (“FAA”) is unconstitutional, especially when used to cover-up a
crime.

There was no agreement to arbitrate with The Blackstone Group however, 42 U.S.C. § 1981
specifically, states that individuals such as supervisors, as well as business entities can be sued
under Section 1981.

The truth is that the petitioner was attacked for lawfully going to the police after he was
struck at work and for defending his civil rights. Kamala Harris was warned before it got to this
point that there was a conflict of interest by way of a cease and desist letter from the petitioner,
yet her threats and harassment kept coming. Kamala Harris was not a legitimate presidential
candidate and does not deserve to step one foot into the white house as a vice president for one
second. Kamala Harris does not represent the ethical values that I want associated with me. I do
not support her (as I have stated many times before) in any shape or form. Kamala Harris has
committed multiple crimes along with her many associates and has not only put me and my
family in danger, but America as well. For example, I am not against a woman of color being the
next vice president, just her. Yet, she and many of her associates will push the narrative that the
petitioner is getting in the way of progress. In actuality, the petitioners’ lawsuit was never about
her, she and her associates just selfishly made it about them, even after they knew that the Civil
Rights Act of 1866 (42 U.S.C. Section 1981) was in danger and a serious challenge to the
Federal Arbitration Act (“FAA”) was in progress, they are complicit in trying to cover-up the
respondents poor behavior. Without civil rights it is doubtful that Kamala Harris would have
ever been elected as a U.S. Senator in the first place and it is well known that what Susan B.
Anthony did for America. The bottom line is that it is dangerous to put Kamala Harris in such a
high position of power knowing that our enemies will be able to use her past actions against her
as leverage. In addition her associates should be taken out of their positions of power as well.
The petitioner does not feel safe with them in their positions and America should not as well.
On January 6, 2021 America was attacked and I fear that more is to come because you
can only tell people not to believe their lying eyes to a certain point. Kamala Harris does not
deserve a path to be President of the United States; the respondents should pay for the damage
they have caused and many of their associates must take responsibility for what their actions
done and what would have happened had the petitioner not took action. I must know that the
petitioner is not their political tool and they do not have control that they thought they had. It is
for these reasons that I ask this Court to not grant the petition for writ of certiorari but to review
all documents, to include the restraining orders that were requested in the lower courts.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

4/rfnd' -I £. forb-«- S
Date:

IM

